memo issued March 20, 2009 that merit-based selection criteria should be used when making
awards, including a “demonstrated or potential ability to deliver programmatic results.”

        However, the Departmental Manual (505 DM 2.16) permits offices making federal
assistance awards to consider applications from suspended and debarred entities. The manual
specifically provides:

       Submissions from debarred or suspended applicants may be considered and reviewed
       because the applicant’s debarred or suspended status may change between proposal
       submission and actual award. However, awards may not be made to applicants who
       remain debarred or suspended at the time the award would be made.

As currently constructed, 505 DM 2.16 seems to leave to the discretion of Bureaus and awarding
offices whether to consider a suspended or debarred entity when making an award. We believe
this policy unduly places the Department’s federal assistance programs at risk. The tight
timeframes and significant funds awarded under the Recovery Act augment this risk. Further,
we are concerned that these circumstances could send mixed messages to Department
employees, Congress, and the public about the Department’s diligence with respect to financial
assistance awards under the Recovery Act.

        Based on our experience in the acquisition integrity arena and work conducted by other
accountability organizations, we believe that consideration of suspended and debarred entities
should be the rare exception – and require rigorous justification – rather than the rule. The
Government Accountability Office (GAO) recently reported that federal agencies awarded
contracts and other funds to entities guilty of egregious offences, including national security
violations and tax fraud (GAO-09-174). Such awards were often made because agency officials
failed to search the Excluded Parties List System (EPLS) or because the offender was not listed
in the system. In rare cases where there are extenuating circumstances, agencies may issue an
exclusion or compelling reason waiver, which would allow an entity to do business with the
government.

       Procurement officials in the Department and Bureaus have raised this same concern
regarding the risk placed on the government by the Departmental Manual requirement.

       We recommend that the Department:

   1) Immediately develop and issue guidance prohibiting bureaus and offices that make
      federal assistance awards under the Recovery Act from considering applications from
      suspended or debarred entities; and

   2) Revise the Department Manual to exclude suspended and debarred entities from
      consideration for financial assistance awards, consistent with policies set forth in the
      Code of Federal Regulations.

        Please provide, by May 1, 2009, a written response to this advisory detailing the
corrective actions the Department plans to take to implement the recommendations, targeted
completion dates, and title(s) of officials responsible for implementation.
                                                                                                  2
       We are available to assist the Department in undertaking the recommended initiatives. If
you have any questions, or would like a more detailed briefing, please do not hesitate to contact
me at (202) 531-6231 or robert_knox@doioig.gov.

cc:    Acting Assistant Secretary – Policy, Management and Budget
       Director, Office of Financial Management
       Departmental GAO/OIG Audit Liaison
       Audit Liaison, Office of the Secretary




                                                                                                3
  Report Fraud, Waste, Abuse ,
     and Mismanagement
          Fraud, waste, and abuse in government
          concerns everyone:Office of Inspector
          General staff, Departmental employees,
            and the general public. We actively
          solicit allegations of any inefficient and
            wasteful practices, fraud, and abuse
          related to Departmental or Insular Area
         programs and operations. You can report
             allegations to us in several ways.




By Mail:          U.S. Department of the Interior
                  Office of Inspector General
                  Mail Stop 4428 MIB
                  1849 C Street, NW
                  Washington, D.C. 20240

By Phone          24-Hour Toll Free            800-424-5081
                  Washington Metro Area        703-487-5435

By Fax            703-487-5402

By Internet       www.doioig.gov/hotline
